Report No. DoDIG-2012-081                 April 27, 2012




    Navy Organic Airborne and Surface Influence Sweep
     Program Needs Defense Contract Management
                     Agency Support
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
DCMA                          Defense Contract Management Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
EVM                           Earned Value Management
FAR                           Federal Acquisition Regulation
MOA                           Memorandum of Agreement
OASIS                         Organic Airborne and Surface Influence Sweep
PEO LCS                       Program Executive Officer (Littoral Combat Ships)
                                   INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                  4800 MARK CENTER DRIVE 

                               ALEXANDRIA, VIRGINIA 22350-1500 


                                                                                   April 27, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                  TECHNOLOGY, AND LOGISTICS
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
               NAVAL INSPECTOR GENERAL
SUBJECT: Navy Organic Airborne and Surface Influence Sweep Program Needs Defense
         Contract Management Agency Supp011 (Repol1 No. DoDIG-20l2-08l)

We are providing this repol1 for your information and use. This repol1 is the first of two audit
reports addressing the Navy's acquisition of the Organic Airborne and Surface Influence Sweep.
The Defense Contract Management Agency and the Navy did not coordinate to effectively
support the Organic Airborne and SUlface Influence Sweep development contract from
February 2008 to April 2011. We considered management comments on a draft of this report in
preparing the [mal report.

Comments on the draft report of this report conformed to the requirements of DoD
Directive 7650.3. Therefore, we do not require any additional comments.

We appreciate the cOUl1esies extended to the staff. Please direct questions to me at (703)
604-9077 (DSN 664-9077).



                                           (la,c~QU?_&;~C/UJr~a~;Y
                                           dacq ine L. Wicecarver
                                            Assi tant Inspector General
                                            Acquisition and Contract Management
   Report No. DoDIG-2012-081 (Project No. D2011-D000AE-0255.000)                    April 27, 2012



                   Results in Brief: Navy Organic Airborne
                   and Surface Influence Sweep Program
                   Needs Defense Contract Management
                   Agency Support
                                                       Engineering and Manufacturing Development
What We Did                                            Phase. As a result, the Program Manager
This report is the first of two audit reports          expended funds over a 38-month period for
addressing the Navy’s acquisition of the Organic       services from a support contractor and did not
Airborne and Surface Influence Sweep                   obtain earned value management analysis,
(OASIS). We determined whether the Defense             monthly progress reports, or monthly program
Contract Management Agency (DCMA) support              assessments from either DCMA or the support
of the OASIS development contract was                  contractor.
effective.
                                                       Management Actions
What We Found                                          As a result of our audit, the Director, DCMA
DCMA and the Navy’s internal controls were             Orlando, took action to assign a program integrator
ineffective. We identified internal control            and program support team to the OASIS Program.
weaknesses in the Navy’s management of the             Further, the acting Executive Director for DCMA
OASIS contract. DCMA officials and the                 Engineering and Analysis modified DCMA policy
Program Manager, Mine Warfare (Program                 to provide mandatory direction for transitioning
Manager), did not effectively transition the           program support requirements between contract
program integrator and program support team            management offices. Additionally, the Director and
requirements for the OASIS contract in                 the Program Manager established a MOA for
February 2008. This occurred because DCMA              supporting the OASIS Program.
did not have policies and procedures for the
transition of program support requirements             What We Recommend
when the contractor changed geographic
                                                       We recommend that the Director, DCMA validate
locations and there was a breakdown in
                                                       ITT Exelis, Inc. earned value management system
communication within DCMA. As a result, the
                                                       and update the Major Program Support Instruction
Program Manager did not benefit from
                                                       to include guidance on transitioning program
assessments of cost, schedule, and technical
                                                       support between DCMA offices. Also, we
performance that DCMA could provide to help
                                                       recommend the Program Executive Officer (Littoral
meet program goals during the engineering and
                                                       Combat Ships) (PEO LCS) perform a review of the
manufacturing phase.
                                                       other programs in the Littoral Combat Ship portfolio
                                                       to determine whether program managers are
The Program Manager did not request DCMA
                                                       maximizing the use of DCMA services.
program management support after the
memorandum of agreement (MOA) expired.
This occurred because the Program Manager              Management Comments and
considered the expired agreement valid and was         Our Response
not aware of the requirement to annually update
the MOA. Additionally, the Program Manager             The DCMA, Executive Director, Engineering and
did not identify program data analyses DCMA            Analysis Directorate and the Navy Program
could have provided before tasking a support           Executive Officer, Littoral Combat Ships, agreed
contractor. This occurred because the Program          with the recommendations and their comments were
Manager believed the OASIS Program primarily           responsive. Please see the recommendations table
needed technical oversight during the                  on the next page.


                                                   i
Report No. DoDIG-2012-081 (Project No. D2011-D000AE-0255.000)   April 27, 2012

Recommendations Table

      Management               Recommendations           No Additional
                              Requiring Comment        Comments Required
Director, Defense Contract
                                                            A.1 and A.2
Management Agency
Program Executive Officer
                                                                B.1
(Littoral Combat Ships)




                                         ii
Table of Contents

Introduction                                                              1


      Objective                                                           1

      Background                                                          1

      Contract Management Guidance                                        3

      Review of Internal Controls                                         5


Finding A. The Navy Needs to Engage DCMA for Support                      6


      Program Integrator and Program Support Team Were Not Assigned       6

      Responsibility Transferred Without Confirmation That Support

        Would Continue                                                    6

      Program Manager Did Not Benefit from DCMA’s

        Independent Assessments                                           7

      Program Manager Could Have Used DCMA Support in Evaluating

        EVM Data to Mitigate Risks to the Program                         7

      DCMA Assigned Program Integrator and Support Team and 

        Revised Major Program Support Instruction                         8

      Management Comments on the Finding and Our Response                 9

      Recommendations, Management Comments, and Our Response             10 


Finding B. The Navy Needs to Effectively Use Program Support Resources   11 


      Expired Memorandum of Agreement                                    11 

      Work Allocated to Support Contractor Without Requesting

        DCMA Support                                                     12 

      Reliance on Support Contractor                                     13 

      DCMA and Program Manager Established a New MOA                     15 

      Management Comments on the Finding and Our Response                16 

      Recommendation, Management Comments, and Our Response              16 


Appendices

      A. Scope and Methodology                                           17 

      B. Milestone C Decision Delayed                                    18 


Management Comments

      Defense Contract Management Agency                                 20 

      Department of the Navy                                             22 

Introduction
Objective
This report is the first of two reports addressing the acquisition of the Organic Airborne and
Surface Influence Sweep (OASIS). The overall audit objective was to determine whether the
Navy was effectively preparing the program for the low-rate initial production phase of the
acquisition process. In this report, we determined whether the Defense Contract Management
Agency (DCMA) support of the OASIS development contract was effective. In the second
report, we will determine whether the Navy has effectively established system requirements and
planned testing to support procuring the OASIS. See Appendix A for a discussion of the audit
scope and methodology.

Background
The OASIS is an Acquisition Category II major defense system that is in the engineering and
manufacturing development phase of the acquisition process. The Navy established OASIS as
an acquisition program in April 2002. As of January 2012, OASIS Program management spent
$111.6 million in research, development, test, and evaluation funds. The Navy is developing
OASIS in preparation for the low-rate initial production decision planned for second quarter
FY 2013.

Funding and Contracting Data
As of January 2012, the program’s budget to develop and test the system totaled $135.4 million
in research, development, test, and evaluation funds, including three OASIS engineering
development models. On April 26, 2002, the Navy awarded a $25 million contract to develop
OASIS to EDO (now known as ITT Exelis Inc.). As of November 2011, the contract was valued
at $55.6 million.

Mission and System Description
The OASIS is a minesweeping system, which will be towed by the MH-60S Multi-Mission
Combat Support Helicopter (the MH-60S helicopter), deployed from the Littoral Combat Ship.
When fielded, the OASIS will generate and impart underwater magnetic and acoustic signature
fields to provide a high-speed influence minesweeping 1 capability. The Navy will use OASIS
when mine hunting is not feasible, where mines are difficult to detect, and where avoidance of
mined areas is not an option. The Navy plans to install the Airborne Mine Countermeasures
Mission Kit to integrate OASIS hardware and software with the MH-60S helicopter.




1
 Influence minesweeping is the ability of the OASIS to mimic a ship’s magnetic or acoustic signature, which then
causes mines to explode.


                                                        1

                          Figure. MH-60S Helicopter Towing the OASIS




       Source: Mine Warfare Program Office

Program Management
The Program Executive Officer (Littoral Combat Ships) (PEO LCS) is responsible for acquiring
and maintaining the littoral (near shore) mission capabilities of the Littoral Combat Ship class.
PEO LCS, the Mine Warfare Program Office, is responsible for acquiring mine countermeasure
capabilities, such as the OASIS, for the Littoral Combat Ship. The Navy Acquisition Executive
is the milestone decision authority for the OASIS low-rate initial production decision.

DCMA
DCMA is the DoD contract support agency responsible for ensuring the integrity of contractual
processes and providing a broad range of contract-procurement management services for
America’s warfighter. Specifically, DCMA provides quality assurance; cost, schedule, and
supply chain predictability analysis; and contract administration, which assists its partners,
including acquisition program managers, in achieving contract objectives. Before contract
award, DCMA provides advice and services to help construct effective solicitations, identify
potential risks, select the most capable contractors, and write contracts to meet the needs of
DCMA customers in Federal, DoD, and allied Government agencies. After contract award,
DCMA monitors contractor performance and management systems to ensure that cost, product
performance, and delivery schedules are in compliance with the terms and conditions of the
contract.

For contract N00024-02-C-6316 (the OASIS contract), three different DCMA offices had
oversight responsibilities at various times after contract award:
   •     DCMA Garden City, in Garden City, New York (April 2002 to February 2008);
   •     DCMA Huntsville, in Huntsville, Alabama (February 2008 to June 2010); and
   •     DCMA Orlando, in Orlando, Florida (June 2010 to present).




                                                2

As discussed in the following sections, DCMA assigns program integrators and program support
teams to help and support acquisition program managers in achieving program goals.

Program Integrator Roles and Responsibilities
The program integrator is the leader of the multi-functional program support team and is
responsible for coordinating with the program support team functional supervisors to ensure that
the team functions as a cohesive unit able to provide timely insights and recommendations to the
Program Management Office and the DCMA Contract Management Office. The program
integrator is also responsible for:
   •	 coordinating the creation and updates to the program support plan;
   •	 ensuring that the program support plan compliments and references the functional

      surveillance plans, as specified by the individual technical instructions;

   •	 monitoring implementation of the program support plan;
   •	 creating and revising the memorandum of agreement (MOA) with the program

      management office; and

   •	 providing monthly Program Assessment Reports to the program management office.

Program Support Team Roles and Responsibilities
The program support team helps the program integrator in implementing the surveillance duties
specified in the program support plan. In coordination with the program integrator, the program
support team provides required support for program milestone events and major program
meetings. The team members routinely communicate in a timely manner with their respective
counterparts at the program management office and with the program integrator regarding
program status or any notable issues or concerns. The program support team reviews contractor
data at least monthly and provides summarized analyses, recommendations, and potential
program impacts and evaluations to the program integrator. The program support team considers
all factors affecting the customer’s goals, program milestones, and final program completion date
in performing program analyses.

Contract Management Guidance
The Federal Acquisition Regulation; Under Secretary of Defense for Acquisition, Technology,
and Logistics policy; and DCMA policy and guidance define the program support DCMA
provides to program managers.

Federal Acquisition Regulation
Federal Acquisition Regulation (FAR) 42.302, “Contract Administration Functions,” specifies
the contract administration functions that Federal organizations normally delegate to contract
administration offices. The contract administration functions include reporting program status;
assessing contractor compliance with contract terms; surveilling contractor engineering efforts
and management systems; and reviewing and evaluating the contractor’s logistic support,
maintenance, and modification programs.




                                                3

Under Secretary Defense for Acquisition, Technology, and Logistics
Policy
Under Secretary of Defense for Acquisition, Technology, and Logistics memorandum “Defense
Contract Management Agency’s Earned Value Management [EVM] Roles and Responsibilities,”
April 23, 2007, designates DCMA as the DoD Executive Agency for EVM Systems. DCMA is
responsible for ensuring consistent application and interpretation of the EVM System guidelines
and for conducting all contractor management system reviews to verify initial and ongoing
compliance. For contracts exceeding a $50 million threshold, Defense Federal Acquisition
Regulation Supplement (DFARS) Section 252.234-7002, “Earned Value Management System,”
allows DCMA to validate the contractor’s EVM System.

DCMA Policy and Guidance
The DCMA Major Program Support Instruction, November 2010, (the DCMA Support
Instruction) provides policy and guidance for performing the contract management functions
listed in the FAR. Specifically, the Instruction provides the DCMA staff with direction when
supporting the program, product and project offices regarding program reviews, program status,
program performance and actual or anticipated program problems, including direction to
establish:
   •	 a MOA with the program manager that focuses on desired program outcomes,
   •	 a program support plan that details the tasks needed to meet the provisions of the MOA,
      and
   •	 a program integrator to manage the program support team and perform the tasks

      documented in the program support plan. 


In addition, the Instruction provides policy and guidance on the program integrator and program
support team responsibilities for monthly program assessment reports, cost, schedule, and
technical analysis; EVM assessments; and integrated baseline reviews of major programs.

Independent Monthly Program Assessments
As provided in the DCMA Support Instruction, DCMA supports program managers through the
Program Assessment Report, a monthly independent assessment of the contractor’s cost and
schedule performance. The Program Assessment Report helps program managers to either
validate the contractor’s assessments or to highlight divergence; and therefore, contribute to
successful program execution. The Program Assessment Report Template in the DCMA
Support Instruction states that the program manager would have received the following
information from the cost portion of the assessment:
   •	 an independent estimate-at-completion, which assesses the accuracy of the contractor’s
      estimate-at-completion and is based on both current and predicted cost performance;
   •	 insight into the execution of programs within approved resources, based on the cost and
      schedule performance status of the program’s major contracts and the probable effects of
      those contracts on cost estimates for future effort on the program;




                                               4

    •    the status of the program’s design-to-cost, value engineering, 2 and other cost reduction
         initiatives, as applicable; and
    •	 an evaluation of the validity of the contractor’s stated root causes for cost trends.

Additionally, the schedule portion of DCMA’s monthly assessment would have provided the
program manager with:
    •	 a schedule assessment to determine how the program is progressing against scheduled
       milestones and delivery dates;
    •	 an analysis of schedule variances, including an evaluation of the validity of the

       contractor’s stated root causes; and 

    •	 the impact schedule variations had on major program decision points and operational
       capability dates.

Assistance in Performing Integrated Baseline Reviews
The DCMA Support Instruction states that, at the program management office’s request, DCMA
will provide support for program integrated baseline reviews. An integrated baseline review, as
defined in the Instruction, is a joint (Government and contractor) assessment of the performance
measurement baseline for a program. The review is required not later than 180 days after
contract award and also after the exercise of major contract options or the incorporation of major
modifications.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” July 29,
2010, requires DoD organizations to implement a system of internal controls that provides
reasonable assurance that programs are operating as intended and to evaluate the effectiveness of
the controls. We identified internal control weaknesses in the Navy’s management of the OASIS
contract. Specifically, we determined DCMA officials and the Program Manager, Mine Warfare
(Program Manager), did not effectively transition the program integrator and a program support
team for the OASIS contract in February 2008. Additionally, the Program Manager did not
request DCMA program management support after the MOA with DCMA expired. We also
determined that the Program Manager relied on a support contractor to provide data analysis that
DCMA could have provided at no cost to the program. We will provide a copy of the report to
the senior official responsible for internal controls in DCMA and the Department of the Navy.




2
 Value engineering is a functional analysis methodology that identifies and selects the best value alternative for
designs, materials, processes, systems, and program documentation.


                                                          5

Finding A. The Navy Needs to Engage DCMA for
Support
DCMA officials and the Program Manager 3 did not effectively transition the program integrator
and program support team for the OASIS contract in February 2008. This occurred because
DCMA did not have policies and procedures for transitioning program support requirements
when the contractor changed geographic locations. In addition, DCMA officials from various
locations did not communicate when transferring responsibilities between offices. As a result,
the Program Manager did not benefit from assessments of cost, schedule, and technical
performance that DCMA could provide to help meet program goals during the engineering and
manufacturing phase.

Program Integrator and Program Support Team Were
Not Assigned
Since February 2008, DCMA has not included a program integrator or a program support team
for the OASIS Program. The DCMA Support Instruction requires the contract management
office to appoint a program integrator and program support team for all DoD Acquisition
Category I and II programs. On February 26, 2008, DCMA Garden City transferred the OASIS
contract administration responsibilities to DCMA Huntsville after the prime contractor moved
from Amityville, New York, to Panama City, Florida. The administrative contracting officer at
DCMA Huntsville stated that she thought that the OASIS contract was sent to her for close out
because there were minimal unliquidated obligation funds on the contract. Subsequently,
DCMA Huntsville transferred OASIS contract administration responsibilities to DCMA Orlando
on June 5, 2010, due to an organizational realignment. When asked, DCMA could not provide
documentation showing communication between the two DCMA offices. According to the
Director DCMA, Orlando, he did not assign a program integrator and a program support team to
the OASIS Program because of a breakdown in communication between DCMA offices, which
resulted in him not knowing that he was responsible for the OASIS Program until April 2011.

Responsibility Transferred Without Confirmation That
Support Would Continue
DCMA Garden City staff correctly prepared the contract amendments to transfer responsibility
to another office, but they did not follow up with DCMA Huntsville staff to ensure that DCMA
program support continued. In February 2008, the prime contractor moved from Amityville,
New York, to Panama City, Florida. On February 26, 2008, DCMA Garden City amended
contract N00024-02-C-6316, transferring responsibility for supporting OASIS from DCMA
Garden City to DCMA Huntsville. The administrative contracting officer at DCMA Huntsville
stated that she did not have contact with anyone regarding the contract nor had she taken any
action because she thought the contract was ready to be closed. This breakdown in
communication occurred because the DCMA Support Instruction did not have a documented
process, including communication requirements for transitioning program support requirements
between DCMA contract management offices.


3
    The Program Manager at the time of our audit assumed the role in March 2009.



                                                         6

On June 5, 2010, DCMA Huntsville amended the contract to transfer responsibility to DCMA
Orlando due to an internal DCMA organizational realignment. In a meeting on April 26, 2011,
the Director, DCMA Orlando, stated that his office was unaware of the transfer of responsibility
until we contacted DCMA in April 2011s because of a breakdown in communication between
DCMA offices.

Program Manager Did Not Benefit From DCMA’s Independent
Assessments
For more than 3 years, the Program Manager did not benefit from DCMA’s independent
assessments of cost, schedule, and technical performance to validate the contractor’s assessment
or highlight divergence and contribute to successful program execution. Additionally, DCMA
could have provided the Program Manager with program assessment reports, an EVM specialist
to review the contractors’ EVM data, or representation to support the Integrated Baseline Review
in September 2008. The DCMA Support Instruction directs DCMA to provide its program
management customers timely, value-added analysis, insight, and action to prevent, or identify
and resolve, existing and potential program problems throughout the life cycle of the program.

DCMA program integrators and program support teams have extensive knowledge and insight to
share with program managers on program cost, schedule, and performance. Further, due to
DCMA’s nearness to the contractor’s facilities, the program integrator and program support team
play an integral role in supporting the Program Manager’s decision making. Without a program
integrator, program support team, and a current agreement to focus DCMA efforts, the Program
Manager did not benefit from the value-added support and resources that DCMA could have
provided to help meet program goals during the OASIS engineering and manufacturing phase.

Program Manager Could Have Used DCMA Support in
Evaluating EVM Data to Mitigate Risks to the Program
The Program Manager could have used DCMA support to evaluate the EVM 4 data to help
mitigate cost increases of $10.4 million or 23 percent between April 2008 through
November 2011. Under Secretary of Defense for Acquisition, Technology, and Logistics
                                           memorandum, “Earned Value Management
    In less than 4 years, the contract     Requirements and Reporting,” August 27, 2008, states
         increased approximately           that EVM was one of DoD’s and industry’s most useful
       $10.4 million (23 percent).         program management tools, providing early warning of
potential contract cost and schedule performance problems. In April 2008, the OASIS contract
was valued at $45.2 million, as of February 2010, the value had increased to $50.5 million. On
November 21, 2011, 21 months later, the contract had increased again approximately $5 million
to $55.6 million. In less than 4 years, the contract increased approximately $10.4 million
(23 percent). The table in Appendix B shows the price increases over the life of the OASIS
contract.




4
 EVM provides a disciplined approach to managing projects successfully through the use of an integrated system to
plan and control authorized work to achieve cost, schedule, and performance objectives.



                                                        7

The Program Manager did not benefit from meaningful insights from DCMA to balance program
requirements and constraints against cost, schedule, and technical risk. Effective risk
management requires a stable and recognized baseline from which to mitigate, and manage
program risk. Two goals of the September 2008 OASIS integrated baseline review were to
foster the use of the EVM System as a means of communicating the cost implications of
technical and schedule problems and successes, and provide confidence in the validity of
contract cost and schedule reporting. According to the Assistant Program Manager for OASIS,
the integrated baseline review did result in a draft revised baseline for the program. The
integrated baseline review briefing charts cited the “lack of an EVM System” as a critical risk to
the program that needed to be addressed immediately. In an October 2011 program assessment
report, the newly assigned DCMA program integrator and program support team conducted an
independent assessment of the OASIS Program and rated the overall program status as high risk.
Specifically, the team reported that the OASIS contract was 108 percent over budget and the
amount of work accomplished (96.9 percent) was less than the amount of work scheduled
(99.5 percent). The team also reported that cost, schedule, and technical areas were all high risk.
Additionally, the assessment stated that the OASIS contract was double the original budget,
years behind schedule, operating with an outdated baseline, and in need of a well-defined way
forward.

DCMA Assigned Program Integrator and Support Team and
Revised Major Program Support Instruction
As a result of our audit, on April 22, 2011, the Director, DCMA Orlando, assigned a program
integrator and a six-person program support team that included an engineer, an EVM System
specialist, two quality assurance specialists, and two administrative contacting officers to the
OASIS Program. Since being assigned to the OASIS Program, the program integrator and the
program support team have regularly attended meetings, visited the prime contractor facility in
Panama City, Florida, and issued five Program Assessment Reports to the Program Manager.
Program Assessment Reports are independent DCMA assessments of contractor performance
with details including actual costs versus budgeted costs, performance schedule, and the way
forward. On February 10, 2012, the Assistant Program Manager for OASIS stated that he
reviews the Program Assessments Reports to help identify any issues with the OASIS contract.
The reports discuss the results of quality assurance activity, including inspections and drawing
reviews, as well as DCMA’s review of technical items and required tasks.

In addition, DCMA Orlando staff reviewed the OASIS contract and recommended adding one
FAR clause and two DFARS clauses. The Program Manager worked with the Naval Sea
Systems Command Procuring Contracting Officer to modify the OASIS contract (Modification
P00068, August 17, 2011) to include the following clauses:
   •	 DFARS 252.234-7002, “Earned Value Management System,” will allow DCMA to
      validate the contractor’s EVM System now that the OASIS contract has exceeded the
      $50 million threshold;
   •	 DFARS 252.228-7001, “Ground and Flight Risk,” addresses the allocation of liability
      between the Government and contractor; and




                                                8

   •	 FAR 52.246-11, Higher Level Contract Quality,” which specifies high-level quality
      requirements for Quality Management Systems – Requirements International
      Organization for Standardization ISO 9001:2008 – Quality Management.
Also, the Program Manager worked with Naval Sea Systems Command Procuring Contracting
Officer to modify the OASIS contract (modification P00069, September 12, 2011) to add
organizational categories to the OASIS contract performance report format to allow for more
complete EVM analysis of the contractor’s performance data. According to the Director, DCMA
Orlando, DCMA had never validated the prime contractor’s EVM System to ensure compliance
with EVM System guidelines. On December 14, 2011, the DCMA Operations Directorate, EVM
Implementation Division, announced plans to conduct an EVM System validation review in
accordance with the OASIS EVM System contract requirements in February 2012. However,
ITT Exelis, Inc. requested DCMA delay reviewing the EVM System until April 2012 after a new
EVM System baseline is developed. Subsequently, the Program Manager suspended funding for
the OASIS Program starting after March 31, 2012; therefore, DCMA postponed the EVM
System validation.

On September 13, 2011, the Director DCMA Orlando, stated that the DCMA Chief Operating
Officer approved an additional personnel resource to support the OASIS contract. DCMA also
changed its policy as a result of our audit that will ensure that all Acquisition Category I and II
programs receive continuous DCMA support. Specifically, on October 11, 2011, the DCMA
Acting Executive Director, Engineering and Analysis Directorate, issued DCMA
Memorandum #11-388 “Tasking: Mandatory Instruction for Transitioning Program
Responsibilities Between CMOs [Contract Management Offices].” This memorandum provides
mandatory interim direction to contract management offices for transitioning prime program
support requirements between offices. On December 5, 2011, the DCMA Director, Joint Non-
DoD Service Portfolio Division, Portfolio Management and Integration, stated that she expected
that DCMA would begin the final coordination process in January 2012 to include guidance in a
DCMA instruction relating to transitioning program responsibilities between contract
management offices. As of March 20, 2012, DCMA was still in the coordination process and
expects to complete the coordination process in May 2012.

Management Comments on the Finding and Our Response
Department of Navy Comments
The Program Executive Officer, Littoral Combat Ships, disagreed with the draft report statement
that the Program Manager could have used EVM data to mitigate risk to the OASIS Program,
stating that this implies EVM data were not used on the OASIS Program. The Program
Executive Officer than stated that EVM data were presented and reviewed during program
quarterly execution reviews with the Program Manager and PEO LCS. He explained that the
PEO LCS spent considerable time questioning OASIS EVM data to better understand and
identify program risk during these quarterly execution reviews.




                                                 9

Our Response
We clarified the report to more clearly state that the Program Manager could have used DCMA
support in evaluating the EVM data to help mitigate cost increases of $10.4 million or 23 percent
between April 2008 through November 2011.

Recommendations, Management Comments, and Our
Response
A. We recommend the Director, Defense Contract Management Agency:

      1. Validate ITT Exelis, Inc. earned value management system in accordance with
Defense Federal Acquisition Regulation Supplement clause 252.234-7002, “Earned Value
Management System,” and

Defense Contract Management Agency Comments
The Executive Director, Engineering and Analysis Directorate, responded for the Director,
DCMA. The Executive Director agreed and stated that the EVM Implementation Division,
DCMA Operations Directorate, scheduled validation of the contractor’s EVM System to begin in
April 2012, but the Program Manager, Mine Warfare, suspended funding for the OASIS Program
starting after March 31, 2012, for the remainder of FY 2012. The Executive Director stated that
as a result of the suspension of funding, DCMA postponed the planned EVM System validation
process until DCMA has been notified that funding has been restored.

Our Response
The Executive Director comments were responsive. No further comments are required.

       2. Complete update of the Major Program Support Instruction to include guidance
on transitioning program responsibilities between contract management offices.

Defense Contract Management Agency Comments
The Executive Director agreed and stated that DCMA issued Action/Tasking Memo No. 11-388
on October 11, 2011, which details requirements when the responsibility for administering a
contract associated with a major program is transferred between contract management offices
due to a change in the contractor location or change in the DCMA organizational alignment. The
Executive Director further stated that the specifics of the memorandum were added as paragraph
nine to the revision of the Major Program Support Instruction, which is currently in the DCMA
coordination process and that DCMA expects to complete the coordination process in May 2012.

Our Response
The Executive Director comments were responsive. No further comments are required.




                                               10 

Finding B. The Navy Needs to Effectively Use
Program Support Resources
The Program Manager did not request DCMA program management support after the MOA with
DCMA expired because the Program Manager considered the expired agreement still valid and
was not aware of the requirement to review the MOA annually.

Additionally, the Program Manager relied on a support contractor to provide data analysis that
DCMA could have provided at no cost to the OASIS Program. Specifically, the Program
Manager did not identify program data analyses DCMA could have provided before tasking the
support contractor because the Program Manager minimized the need for DCMA support for
OASIS during the Engineering and Manufacturing Development Phase of the acquisition
process.

As a result, the Program Manager potentially expended funds 5 over a 38-month period for
services from a support contractor that DCMA could have performed. Additionally, the Program
Manager did not obtain monthly progress reports or monthly program assessments from either
DCMA or the support contractor.

Expired Memorandum of Agreement
The Program Manager and DCMA officials did not take action to renew the MOA to continue
DCMA support of the OASIS Program when the MOA between DCMA Garden City and
Program Executive Officer, Mine Warfare, expired in January 2008. The DCMA Support
Instruction states that the program integrator and program support team must review MOAs
annually and update as needed, in coordination with the program office. Therefore, when the
MOA for OASIS expired in January 2008 and when the administrative responsibilities
transferred from DCMA Garden City to DCMA Huntsville in February 2008, the current
Program Manager, or her predecessor, should have contacted the new DCMA office to establish
a new MOA or update the existing MOA to ensure continuous support of the OASIS Program.
The intent of the MOA is not to restate FAR 42.302 duties; rather, it is an opportunity for the
contract management office and the program management office to agree on the support DCMA
will provide to eliminate redundancy of effort and establish contract oversight needs.

The Program Manager did not request DCMA program management support after the OASIS
MOA had expired because program office staff considered the expired agreement still valid.
Specifically, on August 19, 2011, we received an e-mail from the Assistant Program Manager
stating that “the 2005 MOA between the Program Manager and DCMA was considered active
until it was superseded by the recently signed MOA in July 2011.” However, the
December 2005 MOA states that it would remain in effect only until January 31, 2008.




5
  We were unable to determine the specific amount of costs associated with tasks DCMA could have performed,
rather than the support contractor, because the statements of work and the way the costs were allocated were general
and vague.


                                                        11 

Therefore, the Program Manager, upon taking office in March 2009, should have reviewed the
support provided to the OASIS Program, noted that the MOA was expired, and then requested
DCMA support and signed a new MOA.

Work Allocated to Support Contractor Without Requesting
DCMA Support
When assessing resources to obtain the data analysis needed to support planning and execution
of the OASIS Program, the Program Manager did not request DCMA support. Instead, the
Program Manager relied on a support contractor to provide data analysis that DCMA could have
provided at no cost to the OASIS Program. Specifically, the Program Manager did not identify
the program data analyses that DCMA could have provided before tasking the support
contractor. We performed a comparison of the program support tasks DCMA normally performs
for program managers, as defined in “DCMA Major Program Support” and “Earned Valued
Management System (EVMS) System-Level Surveillance” instructions, and the support services
included in the statement of work for support contract N00024-10-C-6309. Table 1 shows the
results of our comparison. The Program Manager stated that the support contractor was tasked to
manage data and assemble briefs not to perform analyses DCMA could have provided.
However, the task descriptions we obtained from the DCMA Instructions and from the statement
of work for the support contract were very similar and included task areas that would involve
data analysis.

                                    Table 1. Program Support Tasks
                               Tasking                               DCMA1       Support
                                                                                 Contract2
     Create Independent Estimates at Completion                          X          X
     Monitor Monthly Contractor’s Progress                               X          X
     Review Contractor Performance Reports                               X          X
     Create Status and Management Reports                                           X
     Participate in Integrated Baseline Reviews                          X          X
     Perform Contract EVM Analysis                                       X          X
     Create Program Support Plan                                         X
     Perform General Program Support3                                    X          X
     1
      Based on the DCMA Major Program Support and Earned Valued Management System (EVMS)
     System-Level Surveillance instructions.
     2
         Based on the statement of work for support contract N00024-10-C-6309.
     3
      For example, cost, schedule, and technical performance data analyses.


Because those taskings from the Program Manager to the support contractor on contract N00024­
10-C-6309 and the deliverables from those taskings were informal, we could not quantify total
value of support contractor taskings that DCMA could have performed. However, we can
provide an example of a specific instance where the Program Manager used the support
contractor for work DCMA could have performed. Specifically, the Program Manager should



                                                       12 

have requested that DCMA assist in developing reliable and achievable performance
measurement baselines for the OASIS Program, instead of tasking the support contractor.
According to the Assistant Program Manager, the two support contractor employees participated
in interviews of the control account managers during the 2008 integrated baseline review. The
DCMA Support Instruction, Paragraph 2.2.6.1, “Cost Analysis,” states that the program
integrator investigates cost variances to determine the validity of the contractor’s stated root
cause for the variances and that those investigations should include interviews with control
account managers. Had DCMA been involved during the 2008 integrated baseline review, the
Program Manager may not have needed support contractor staff at the review or could have used
them to conduct tasks other than those tasks that DCMA should be performing as part of their
program support function.

In another example, the Program Manager could have used DCMA to update the provisions in
OASIS contract N00024-02-C-6316. Specifically, the OASIS contract exceeded the $50 million
threshold in February 2010, and the Program Manager could have requested that the procuring
contracting officer modify the contract to add DFARS clause 252.234-7002. Adding the DFARS
clause would have allowed DCMA to determine whether the contractor’s EVM System complied
with the EVM System guidelines in the American National Standards Institute/Electronic
Industries Alliances Standard 748. 6

Reliance on Support Contractor
The Program Manager relied on the support contractor because she minimized the need for
DCMA to support the OASIS during the Engineering and Manufacturing Development Phase of
the acquisition process. Specifically, on August 19, 2011, in response to our audit inquiries, the
Program Manager stated that, because the OASIS was not in procurement, her main support need
was “technical oversight,” which was sufficiently provided by . . . “other engineering
organizations.” On January 27, 2012, the Program Manager clarified that she was referring to
the Naval Surface Warfare Center - Panama City, which is the Navy’s technical agent for mine
warfare. While the Naval Surface Warfare Center does provide technical support to the OASIS
Program, the DCMA Support Instruction, Paragraph 2.2.6.3, “Technical Analysis,” states that
DCMA has a commitment to provide program managers an independent technical assessment.
The paragraph further states that the DCMA program integrator will base the technical
assessment on engineering, software acquisition management, and manufacturing and quality
assurance surveillance activities in the program support plan. The DCMA Support Instruction,
Paragraph 7.1.1.3, “DCMA/PMO Strategy for Effective Program Support,” states that the
program management office and DCMA must coordinate to make maximum use of DCMA staff
at contractor facilities. It is the responsibility of the Program Manager to delineate support work
that DCMA and the support contractor can provide so as to use OASIS Program resources and
funds most efficiently.

As a result of not requesting DCMA support and not clearly identifying support requirements,
the Program Manager potentially expended funds over a 38-month period for services from a

6
 American National Standards Institute/Electronic Industries Alliances Standard 748 describes 32 guidelines that
provide a consistent basis to assist the Government and the contractor in implementing and maintaining acceptable
EVM Systems.


                                                        13 

support contractor that DCMA could have provided at no cost to the program. The Program
Manager could have used the funds to have the support contractor work on other program needs.
Also, the support contractor provided analyses that were insufficient to provide the Program
Manager with information needed to mitigate cost growth and schedule delays. Specifically, the
support contractor did not provide EVM analyses, monthly progress reports, and monthly
program assessments so the Program Manager would have been aware earlier of the
$10.4 million cost increases and schedule delays for the Milestone C decision. For further
details on program cost increases and schedule delays, see Appendix B.

Support Contractor Not Fully Meeting Cost and Schedule Data
Analysis Responsibilities
The support contractor was not effective in meeting contractual responsibilities for cost and
schedule data analysis on contract N00024-10-C-6309. 7 The support contractor was tasked to
assist in monitoring and evaluating cost, schedule, and technical performance of the prime
contractor. However, the contracting officer’s representative at the PEO LCS stated that as of
September 14, 2011, the support contractor had not provided the program office any of this.

One example of the support contractor’s lack of effectiveness in meeting contractual
responsibilities for cost and schedule analysis involved the contract performance report. Under
contract N00024-10-C-6309, the support contractor was to review the contractor’s contract
performance report. However, according to the Assistant Program Manager, the contractor
omitted the baseline format of the contract performance report for more than 2 years. The
contract data requirements list required the baseline format. The baseline format is used to
measure contractor performance against the budget baseline plan. Neither the support contractor
nor the Program Manager caught this omission. The PEO and the Program Manager should not
rely on a support contractor to provide assessments of the contractor performance reports.
Instead they should have relied on DCMA to provide an independent assessment of the
contractor performance reports. PEO LCS should review other programs in the LCS portfolio to
determine whether the use of DCMA services is being maximized.

PEO LCS Support Contracts Used for Tasks DCMA Could Have
Performed
From October 2003 through September 2011, PEO LCS awarded three contracts totaling
$338.2 million to CACI8 to provide support to eight program offices within the command, one of
which was the office of the Program Manager, who was responsible for the OASIS Program.
Some of the taskings in the support contracts DCMA could have provided to the program offices
at no cost. However, we were unable to determine the specific amount of cost associated with
tasks DCMA could have performed rather than the support contractor because the statements of
work and the way the costs were allocated were general and vague. Under Secretary of Defense
for Acquisition, Technology, and Logistics memorandum, “Better Buying Power: Guidance for
Obtaining Greater Efficiency and Productivity in Defense Spending,” September 14, 2010, states


7
  The period of performance for the OASIS portion of contract N00024-10-C-6309 is from September 29, 2010 to

September 30, 2011.

8
  Contract N00024-01-D-7030 was awarded to Vredenburg, which is a subsidiary of CACI.



                                                      14 

the Department has experienced significant increases in mission/requirements for services
spending, particularly in knowledge management services, which has increased 400 percent in
the last decade. These requirements often require the same function or services to be provided
but are written uniquely among various commands so that competition is limited.

The support contractor provided program management and acquisitions support services,
technical and engineering support services, business and financial management support, and
logistics support services to the OASIS Program. However, DCMA could have performed those
functions. For example:
   •	 Contract N00024-01-D-7030, delivery order 0004, awarded October 29, 2003, and valued
      at $81.4 million, tasked the support contractor to perform EVM assessments, participate
      in the cost account manager reviews that the hardware and software vendors conduct, and
      assist in identifying and resolving issues.
   •	 Contract N00178-04-D-4026, delivery order EH01, awarded September 1, 2005, and
      valued at $184.5 million, tasked the support contractor to assist in monitoring and
      evaluating cost, schedule, and technical performance of the prime contractor including
      formal EVM assessments, if required. Also, the support contractor was to participate in
      integrated baseline reviews, perform contract EVM Systems analysis, and develop
      independent estimates at completion.
   •	 Contract N00024-10-C-6309, awarded September 29, 2010, and valued at $72.3 million,
      tasked the support contractor to assist in monitoring and evaluating cost, schedule, and
      technical performance of prime contractor including formal EVM assessments, if
      required. Also, the support contractor was to participate in integrated baseline reviews,
      perform contract EVM Systems analysis, and develop independent estimates at
      completion. Contract N00024-10-C-6309 also required the support contractor to submit
      monthly status and management reports on the contractor’s progress and to provide status
      and technical report studies and services as required. Specific examples of required
      support contractor submissions included work breakdown structure, quarterly execution
      reviews, and independent cost estimate inputs.

DCMA should have conducted the EVM-related assessments that the three support contracts
required. Further, the DCMA Major Program Instruction emphasizes the value of an
independent DCMA assessment of the contractor’s cost, schedule, and technical performance.
The Program Manager should have requested that DCMA prepare performance assessment
reports and conduct integrated baseline reviews to obtain performance data that the Program
Manager could have used to proactively manage the program and accurately report program
performance to decision makers.

DCMA and Program Manager Established a New MOA
As a result of our audit, on July 11, 2011, the Director of DCMA Orlando and the Program
Manager established a new MOA that defines the functions, responsibilities, and oversight
requirements requested of DCMA Orlando to support the OASIS Program.




                                               15 

Management Comments on the Finding and Our Response
Department of Navy Comments
The Program Executive Officer, Littoral Combat Ships, agreed in principle with the conclusion
that the OASIS Program lacked DCMA support during the 38-month period between MOAs. He
stated that none of the program support contractors performed duplicative work that DCMA
could have provided. He further stated that contract N00024-10-C-6309 was an omnibus
contract covering multiple program offices with dozens of program management support
subtasks that were tasked as required. He also stated that for the OASIS Program, the support
contractor was tasked to manage data and assemble briefs for the program office; the support
contractor was not tasked with EVM data analyses.

Our Response
We disagree that “none of the program support contractors” performed duplicate work that
DCMA could have provided. As discussed in section “Work Allocated to Support Contractor
Without Requesting DCMA Support,” we found an example showing that the support contractor
performed work that DCMA could have performed. However, we also acknowledge that
contract N00024-10-C-6309 covered multiple program offices with dozens of program
management support subtasks. Further, we clarified the report to acknowledge that the support
contractor did not provide assessments of the EVM System, but provided assessments of
contractor performance reports, which the Program Manager should have relied on DCMA to
provide.

Recommendation, Management Comments, and Our
Response
B.1. We recommend the Program Executive Officer (Littoral Combat Ships) perform a
review of the other programs in the Littoral Combat Ship portfolio to determine whether
program managers are maximizing use of the Defense Contract Management Agency
services.

Department of the Navy Comments
The Program Executive Officer, Littoral Combat Ships, agreed and stated that the Navy will
conduct a review of the Littoral Combat Ship Acquisition Category I and II programs to ensure
current MOAs with DCMA are in place to maximize use of its services and ensure that program
offices are receiving monthly program assessments in accordance with MOA guidelines. The
Program Executive Officer stated that the target completion date is May 31, 2012.

Our Response
The Program Executive Officer comments were responsive. No further comments are required.




                                             16 

Appendix A. Scope and Methodology
We conducted this performance audit from March 2011 through March 2012 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

We interviewed staff from: Program Executive Office (Littoral Combat Ships), Mine Warfare
Program Office, Washington Navy Yard; Naval Sea Systems Command Contracting Office,
Washington Navy Yard; Navy Surface Warfare Center – Panama City Division, Florida; DCMA
Orlando, Florida; DCMA Orlando – Shalimar Office, Florida; DCMA Huntsville, Alabama;
DCMA Garden City, New York; Defense Contract Audit Agency Fort Walton Beach, Florida;
and ITT Corporation, Panama City, Florida.

We collected, reviewed, and analyzed documents dated from August 2001 through
December 2011. We reviewed FAR; DFARS; Under Secretary of Defense for Acquisition,
Technology, and Logistics; and DCMA regulations and guidance. We also reviewed the OASIS
contract N00024-02-C-6316; the support contractor contracts N00024-01-D7030 delivery order
0004, N00178-04-D-4026 delivery order EH01; and N00024-10-C-6309. Specifically, we
reviewed contract modifications; contract data requirements list; contract performance reports;
performance assessment reports; program support plans; the MOA between Program Manager
and DCMA; Integrated Baseline Review; and milestone decision authority memoranda to
determine whether Program Manager was effectively managing the OASIS Pprogram.

Use of Computer-Processed Data
We did not rely on computer-processed data to perform this audit.

Prior Coverage
No prior coverage has been conducted on the overall management of the OASIS Program during
the last 5 years.




                                                17 

Appendix B. Milestone C Decision Delayed
Table B-1 depicts the cost increases to the OASIS Program from April 2002 to November 2011.

On April 26, 2002, the Navy awarded a $25 million contract to develop OASIS. Between

April 2002 and November 2011, the contract value increased by $30.6 million for a final total 

value of $55.6 million.


                          Table B-1. OASIS Program Cost Increase




Original Milestone C Acquisition Program Baseline January 2005 to July 2005: In
February 2003, the Program Manager stated that the OASIS would deviate from its current
baseline due to schedule deviations in Milestone C, low-rate initial production, because of the
Department of the Navy budget review.
Milestone C Acquisition Program Baseline Change 1 August 2005 to February 2006: In
October 2003, the Program Manager stated that the OASIS Program anticipated a deviation in
Milestone C due to a decrease in Navy procurement funding.
Milestone C Acquisition Program Baseline Change 2 December 2006 to June 2007: In
July 2004, the Program Manager stated that because of cost and schedule deviations due to
program restructuring alignment with MH-60 S Test and Evaluation Aircraft schedule, the
OASIS Program anticipated an increase in Research, Development, Test, and Evaluation costs
and a delay in the Milestone C decision.
Milestone C Acquisition Program Baseline Change 3 August 2008 to February 2009: In
October 2006, the Program Manager stated that the OASIS Program was experiencing cost
growth and schedule delays as a result of a technical issue relating to the OASIS tow cable
interface with the MH-60S helicopter carriage, stream, tow, and recovery system.




                                                18

Milestone C Acquisition Program Baseline Proposed Change 4 May 2010 to
November 2010: In August 2008, the Program Manager presented a planned Milestone
C decision for May 2010 to the Assistant Secretary of the Navy, Research, Development,
and Acquisition.
Current Program Office Estimate for Milestone C Acquisition Program Baseline
October 2012 to December 2012: On January 6, 2012, the Assistant Program Manager
for OASIS stated that the Milestone C decision is scheduled to occur in the first quarter
FY 2013.




                                           19 

Defense Contract Management Agency Comments





                 Click to add JPEG file




                                20
Click to add JPEG file




               21
Department of the Navy Comments





                  Click to add JPEG file




                                 22
Click to add JPEG file




               23
                           Final Report 

                            References





                         Revised, Page 7




Click to add JPEG file

                         Revised, Page 14
